<html>
<title> - [H.A.S.C. No. 114-77] EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT INVESTMENTS ON NAVY READINESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                          [H.A.S.C. No. 114-77]

                   EFFECTS OF REDUCED INFRASTRUCTURE

                       AND BASE OPERATING SUPPORT

                     INVESTMENTS ON NAVY READINESS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 8, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-886                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York          JOAQUIN CASTRO, Texas
FRANK A. LoBIONDO, New Jersey        TAMMY DUCKWORTH, Illinois
MIKE ROGERS, Alabama                 SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
RICHARD B. NUGENT, Florida           BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               RUBEN GALLEGO, Arizona
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
               Michael Miller, Professional Staff Member
                Brian Garrett, Professional Staff Member
                        Katherine Rember, Clerk




























                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Smith, VADM Dixon R., USN, Commander, Navy Installations Command; 
  accompanied by RADM Mary M. Jackson, USN, Commander, Navy 
  Region Southeast, and CAPT Louis J. Schager, USN, Commanding 
  Officer, Naval Air Station Oceana..............................     3

                                APPENDIX

Prepared Statements:

    Smith, VADM Dixon R., joint with RADM Mary M. Jackson and 
      CAPT Louis J. Schager......................................    36
    Wittman, Hon. Robert J.......................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................    47
    Mr. Russell..................................................    48
    Mr. Scott....................................................    47
    Mr. Wittman..................................................    47

Questions Submitted by Members Post Hearing:

    Mr. Wittman..................................................    51











     EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT 
                     INVESTMENTS ON NAVY READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Friday, January 8, 2016.
    The subcommittee met, pursuant to call, at 8:01 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I will call to order the Subcommittee on 
Readiness, subcommittee of the House Armed Services Committee. 
I want to welcome everybody this morning. Thank you all for 
being here for today's readiness hearing on the effects of 
reduced infrastructure and base operating support investments 
on Navy readiness.
    This is the second of three hearings on this topic. In 
December, the Army and Marine Corps testified to increased 
readiness risks due to reduced installation investments. I look 
forward to hearing the views of the Navy today and the Air 
Force next week.
    I would like to welcome our Navy panel of experts. This 
morning, we have with us Vice Admiral Dixon Smith, Commander, 
Navy Installations Command; Rear Admiral Mary Jackson, 
Commander, Navy Region Southeast; Captain Louis Schager, 
Commanding Officer, Naval Air Station Oceana.
    Over the last several years, the subcommittee has largely 
focused on operational readiness recovery since the drawdown of 
forces in Iraq and Afghanistan. At the same time, the 
Department of Defense assumed risk in infrastructure 
investments and reduced mission support services by redirecting 
funds from installation programs to other operational and 
training budget priorities.
    Uncertain funding levels stem from repeated continuing 
resolutions [CRs], and sequestration exacerbated these risks. 
The purpose of this hearing is to clarify the Navy's choice for 
infrastructure and installation services, to address funding 
priorities and mitigation strategies, and to gather more detail 
on the current and future impact of these decisions on 
operations and training from the commanders' perspective.
    As witnesses testify, I would ask you address existing risk 
in the infrastructure and installation support program and 
impacts to readiness; also, how will the recent 2-year budget 
reshape those risks and impacts; and what will the level of 
risk and impacts over the next 10 years be if budget levels 
remain constant or return to sequestration levels.
    I would like to now turn to our ranking member, Madeleine 
Bordallo, for any remarks that she may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And I thank the witnesses for being here this morning.
    I do thank you, Mr. Chairman, for arranging this hearing on 
our infrastructure investments and their effect on our Navy 
readiness. This hearing continues the series of hearings that 
we are conducting to look into how reduced infrastructure 
investments impact the readiness.
    To the witnesses, I thank you all again for your service 
and for being here today.
    Over the years, this subcommittee has held hearings on the 
state of our military infrastructure and the impact that budget 
decisions have had on the Department's ability to maintain and 
recapitalize that infrastructure. This subcommittee has closely 
examined issues impacting the state of our military's readiness 
and the devastating impacts that sequestration have had.
    As we receive testimony from each service--Army and Marine 
Corps in December and the Navy and the Air Force this month--I 
believe this is the first time that we have held subcommittee 
hearings where we attempt to understand the impact that budget 
decisions regarding military infrastructure and installation 
support are having and will have on training and readiness in 
the future.
    We have heard evidence from several military installations 
that is indicative of adverse impacts to training and 
operations due to degraded infrastructure and installation 
support, and if this is the case, there are indications of a 
broader trend. The subcommittee needs to understand what the 
impacts are and what needs to be done to address this 
situation.
    We often hear that the Department is accepting risk due to 
the budget constraints that Congress has placed on the 
Department. For the Navy's infrastructure program, this can be 
seen in funding FSRM [Facilities, Sustainment, Restoration, and 
Modernization] below the OSD [Office of the Secretary of 
Defense] model of 90 percent and in a decrease in military 
construction funding compared to pre-sequestration levels. We 
also hear that the Department is managing that risk and still 
performing the mission.
    We understand and appreciate the military's can-do and 
make-do attitude, but I hope that today our witnesses will 
provide specific examples of how this risk in the 
infrastructure enterprise has impacted military readiness or 
could impact military readiness.
    For example, we need to know if training opportunities are 
being lost, scaled down, deferred, or canceled because our 
range safety and training functions are not adequately funded. 
We need to know if training sessions or mission functions are 
not realistic or adequate to meet current operational needs 
because the facilities in which such training is conducted are 
not serviceable.
    Already, our full-spectrum readiness recovery timelines 
extend beyond 2020, and even that can be accomplished only with 
stable funding.
    So this has resulted from a series of financial decisions 
to defer spending on preventive maintenance in favor of more 
pressing readiness elements and, frankly, with the Navy for 
shipbuilding and other capital asset priorities. However, we 
cannot afford to continue neglecting critical installation 
maintenance projects without seeing readiness being 
significantly affected.
    Without fully equipped, functioning, and well-maintained 
installations, we cannot generate the readiness that is needed, 
and our men and women in uniform as well as our civilian 
personnel performing their duties around the country and the 
world deserve that.
    So, again, Mr. Chairman, I thank you for holding this very 
important hearing.
    Mr. Wittman. Thank you, Madeleine.
    Admiral Smith, I have been told you will be making one 
opening statement on behalf of all the witnesses, so please 
proceed. And, as a reminder, your written testimony has already 
been made available to our members and will be part of our 
official record.
    Admiral Smith.

    STATEMENT OF VADM DIXON R. SMITH, USN, COMMANDER, NAVY 
  INSTALLATIONS COMMAND; ACCOMPANIED BY RADM MARY M. JACKSON, 
   USN, COMMANDER, NAVY REGION SOUTHEAST, AND CAPT LOUIS J. 
   SCHAGER, USN, COMMANDING OFFICER, NAVAL AIR STATION OCEANA

    Admiral Smith. Thank you.
    Mr. Chairman, Ranking Member Bordallo, and distinguished 
members of the committee, I appreciate the opportunity to 
discuss the impact of reduced infrastructure and base operating 
support investments on readiness with you today.
    I am proud to represent the more than 52,000 military and 
civilian personnel and their families who are dedicated to the 
shore mission, sustaining the fleet, enabling sailors, and 
supporting our Navy family.
    Joining me today, Mr. Chairman, as you said, Rear Admiral 
Mary Jackson, Commander, Navy Region Southeast, out of 
Jacksonville, Florida, and Captain Louis Schager, our 
commanding officer at Naval Air Station Oceana in Virginia 
Beach.
    I would also like to introduce my Force Master Chief, 
Andrew Thompson, who, while not part of this panel, is here 
with us today. I rely heavily on his insight and counsel. He 
plays an integral role in our ability to manage our shore 
enterprise operations, particularly when it comes to the 
quality-of-life programs for our sailors, civilians, and 
families.
    With 70 installations worldwide, the Navy shore enterprise 
is much more than buildings, piers, and runways. Our shore 
installations provide the platform to train and enable our 
sailors, sustain our ships and aircraft, and support our 
military families. They are the backbone, launch platform, safe 
haven, and home of our fleet.
    The shore enterprise is complicated and vast, with a 
mission that spans from operating ports and airfields to 
security, child care, counseling, housing, food service, just 
to name a few. We are constantly juggling multiple priorities 
to support emerging fleet needs and requirements. Our fleet 
relies on us.
    Yet budget shortfalls have compelled the Navy to reduce our 
investment in shore readiness to preserve the operational 
readiness of our fleet. Looking at our existing facilities, we 
are currently funding the sustainment, restoration, and 
modernization of our facilities only enough to maintain the 
overall condition of our most critical infrastructure for the 
short term. We are funding facility sustainment below the 
Department of Defense goal of 90 percent, and our facilities 
are deteriorating at an accelerated rate.
    Regarding the operation of our installations, we remain 
committed to adequately funding fleet operations, sailor and 
family support programs, and child development. However, due to 
funding shortfalls, we continue to accept a deliberate level of 
risk for the remainder of our base operating support functions, 
such as facility services, ground maintenance, and 
administrative support.
    While these situations are not ideal, they are necessary in 
today's fiscal environment. I realize this hearing is not the 
first time you have heard about the strain that is put upon our 
shore leaders across all military services and the challenging 
decisions we make every day. Navy's challenges are very similar 
to the other military services. Shore infrastructure and 
support services are enablers to training and operational 
capabilities, readiness, morale, and health and well-being of 
the overall force.
    Having served as a base commander, regional commander three 
times, and now as Commander, Navy Installations Command, I have 
experienced firsthand the challenges and the opportunities 
across the shore domain. I have made it a priority to connect 
with our operational commanders and sailors to witness 
firsthand the direct impact our installations have on 
readiness. I have been impressed by the dedication and 
commitment to delivering the quality support we provide to our 
fleet, our sailors, and the Navy family.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The joint prepared statement of Admiral Smith, Admiral 
Jackson, and Captain Schager can be found in the Appendix on 
page 36.]
    Mr. Wittman. Thank you, Admiral Smith. I appreciate that 
perspective.
    I want to begin by asking, what categories and types of 
installation services are most important for the Navy in 
raising and sustaining readiness?
    And, as you point out, with infrastructure investment being 
below target goals, being below OSD goals, what does the Navy 
do to prioritize where the limited dollars go as far as 
sustaining Navy readiness? So if you can give us an idea, 
across which types of facilities, which areas do you target the 
dollars that you do have in order to do the most to sustain 
readiness?
    Admiral Smith. Yes, Mr. Chairman.
    So our top priorities are sustaining that fleet readiness 
and also our strategic deterrent triad. So we focus and make 
sure that we are funding our nuclear weapons facilities, making 
sure that they are fully where they need to be, and then also 
things that take care of that fleet readiness, so our shipyards 
and depots. We ensure that they are getting the resources they 
need to bring them back to where they need to go.
    We also focus on other critical operations, so our 
communications stations, our runways, supporting facilities for 
our airfields and our ports. At the same time, we also need to 
make sure that we are taking care of our fire and security 
assets.
    And then we go look at our quality-of-life programs, again, 
making sure that we are funding the first ones that I mentioned 
in my opening comments--child care and the quality-of-life 
programs.
    Mr. Wittman. Thank you, Admiral Smith.
    I am going to go down to Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    As you said in your testimony, Admiral, the fiscal 
constraints have required commanders at the Pentagon and the 
field to prioritize critical maintenance and operational 
readiness needs against deferring less pressing restoration 
projects. So, as you note, that is not a sustainable solution 
in the long term.
    Could you elaborate on the broader impacts on future 
readiness and quality of life for our sailors that result from 
deferring noncritical costs?
    Admiral Smith. So, when we take risk now, we are pushing 
that risk out. And so we keep an eye on that very closely. And 
that long-term risk, as we move towards that, that becomes then 
what we focus on. So what we are putting ourselves into is a 
reactive mode, and we don't as much look forward and are ahead 
of the problem and prioritize. We become reactive.
    So we get to the point now where we don't fix things, 
repair facilities, infrastructure that we know is coming 
required until it breaks. And so that means we take money away 
from things that we program for to fix the now.
    If it is an operational necessity or if it is an air 
conditioning system in a child development center [CDC]--I 
mean, we just had, this week, a boiler system go down for a 
child development center. And so we weren't expecting that, so 
we took those funds from something else to get that facility 
back up to take care of our families and get those kids back in 
that CDC.
    Lou, I don't know if you want to extrapolate on that down 
at the installation level.
    Captain Schager. Yes, sir.
    I agree with Admiral, in that oftentimes it feels like we 
are treating symptoms and not the root problem.
    And I think the long-term sustainability of, for example, 
hangars at Oceana, we have a project that is correcting some 
issues at one of our hangars currently. That will be done 
within a couple months. All the hangars have issues and 
challenges. A lot of roofs are leaking. We have some fire 
protection challenges, some--AFFF, which is a foam used to 
fight aircraft-specific fires, we have some challenges in the 
hangars for that.
    And so we have mitigated that risk by having maintainers 
aware of those challenges. They communicate with the fire 
department, our own fire department, before they do specific 
kind of maintenance that could affect that. And so that is how 
we mitigate those kind of risks.
    However, if I had enough money to repair all of the hangars 
right now, I couldn't do it, because right now we shifted 
squadrons to other hangars, so there is not room, there is not 
capacity to move all these squadrons around while repairing 
hangars. We can do one at a time.
    And so that is why it is really crucial to have a plan laid 
out where it is predictable and the commodore can count on this 
hangar being repaired at this time, so when the squadron 
returns from deployment they can get back into their training 
cycle.
    And so I think, segueing or continuing on with admiral's 
thoughts, I think if we don't have that sustained programmatic 
funding, I think it will exponentially get more difficult to 
manage those risks as we continue on.
    Ms. Bordallo. Yes, Rear Admiral.
    Admiral Jackson. Ma'am, if I could just also add, from a 
regional perspective, our process by which we are aware of the 
projects that are needed, either because of life cycle or 
because of degradations over a period of time and our condition 
indexes are low, we have a process by which we know that and we 
rack and stack and we work very closely with our warfighters, 
our warfare enterprises, to make sure that we have that 
awareness.
    But, as the installation commander pointed out, there is 
only so much to go around. And so what happens is, although we 
have a plan, for example, to change out an entire system, a 
chiller system at a dry dock or HVACs [heating, ventilating, 
and air conditioning] at missile processing plants, we end up 
dealing with the breakages that occur.
    So we will fix pieces and parts rather than holistically, 
when the whole system needs to be fixed. And so we then get hit 
twice, because we do the small repair, but then we still have 
to do the longer, big repair to get us back to where we need to 
be.
    Thank you.
    Ms. Bordallo. Well, I certainly couldn't agree with all of 
you more, because the minute you neglect maintenance, you are 
in trouble.
    But as a follow-up, facility sustainment has taken the 
biggest hit in infrastructure and base support investments 
since sequestration became the law of the land. So, as we work 
to restore regular order and provide future-year fiscal 
awareness, I was encouraged by progress in the fiscal year 2016 
budget request, which took steps to address critical 
maintenance needs, particularly within the facilities 
sustainment, restoration, and modernization accounts.
    What steps do you see or anticipate being taken to 
implement the April 2014 OSD facility sustainment policy 
memorandum, particularly to meet the 90 percent sustainment 
requirement?
    Admiral.
    Admiral Smith. Yes, ma'am. So the sustainment levels that 
we are getting right now will just reduce the decline. So, as 
you indicated, we are being funded to less than the 90 percent 
that OSD desires. Our facilities right now have a Facility 
Condition Index code of just over 80 percent. With the current 
funding level, that is going to decrease at .5 percent a year, 
so we are going to be at a 2.5 percent decrease by the end of 
this FYDP [Future Years Defense Program].
    So the funding that we have received is slowing that 
decline, but we are still declining.
    Ms. Bordallo. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And my question gets to demolition of obsolete buildings. 
How many buildings does the Navy currently have that are 
considered obsolete?
    Admiral Smith. I will have to take that for the record. For 
the total Navy, I don't know that.
    [The information referred to can be found in the Appendix 
on page 47.]
    Admiral Smith. Mary or Lou, do you know specific numbers 
for your installation or region?
    Mr. Scott. Do you know approximately?
    Captain Schager. Sir, I can tell you, this fiscal year--and 
thanking the committee, because I think Oceana has been a 
benefactor of identifying some needs, but we have demolition 
money this year of just over $2 million.
    We have some facilities, I think seven, that are going to 
be demoed. And those are not large facilities, you know. Those 
encompass a variety of things that will help create some 
efficiencies in how we operate on the installation.
    Mr. Scott. And I know you were taking it for the record. I 
would also like to know how many were demolished last year.
    It seems to me that a tremendous amount of money could be 
saved if we were more aggressive in the disposal properties 
that we know are obsolete instead of maintaining them to any 
standard when we are not going to use them.
    Admiral Smith. Yes, sir. No, and I will get you that 
number, but you are correct. So, in a pressurized fiscal 
budget, where we have to make decisions, there are plenty of 
facilities that we would like to demolish. We are not 
demolishing those because we have to take that money and put it 
elsewhere.
    So, some years in the past few years, we have had a zeroed-
out account. Others, we have less demolition funds than we 
would like to be able to demo. And, as you point out, while we 
put them in lay-up, there are still things we need to do to 
maintain them, plus they are eyesores and all the other things 
that come with dilapidated buildings.
    So we are not demoing what we need to demo. We are 
increasing and inheriting a backlog on that, and it is 
increasing. And I will get you the specifics on that.
    Mr. Scott. I think one of the things that would be helpful 
to the committee, as well, is, certainly in the private sector, 
what you would look at is how much am I going to pay to 
maintain that facility to any standard versus what does it cost 
for me to demolish it and how many years does it take for me to 
get the payback to go ahead and get rid of the building. And, 
certainly, if your return on that is over the course of 2 or 3 
years, it makes a lot of sense to go ahead and get rid of the 
building.
    But those are the issues that I would appreciate some 
additional details on.
    Admiral Smith. Yes, sir.
    Mr. Scott. And, other than that, thank you for your service 
and----
    Admiral Smith. Mary?
    Mr. Scott [continuing]. Thank you for being here today.
    Admiral Jackson. Sir, if I may add, from a regional 
perspective, when we are talking about demolition--and I don't 
have the exact numbers, and we will provide that. But, 
predominantly, when we are talking about demolition, we are in 
those facilities and using them for the requirements as best we 
can. And in many cases--I won't say all, but the 
preponderance--it is because we want to demolish and then 
replace it. Because the requirement still stands.
    Mr. Scott. Okay.
    Admiral Jackson. It has evolved. Perhaps----
    Mr. Scott. Sure.
    Admiral Jackson [continuing]. There has been a mission 
growth that we need to address. But it is not as easy as taking 
the building completely down to the ground and not being able 
to replace it, because the requirements are still very real.
    Mr. Scott. Sure. If it is obsolete, you would assume that 
it was vacated. If it is obsolete and not vacated, then that is 
a different scenario. So maybe you could break it down between 
the ones that are vacated and the ones that are not vacated.
    One last question. How much do we spend--you probably can't 
quantify this. How much are we spending in addition on repairs 
and maintenance because of the bid process, where you are 
forced to take the lowest bid instead of the best bid, if you 
will, from the best contractor, when the original building, 
facility, is built?
    Admiral Smith. You are correct; I am not sure how I can 
quantify that. And that is something I am going to have to go 
dig into and analyze.
    You are right, we go with the lowest bid. How does that 
impact the product we get and what follow-on repairs maybe we 
have to have? I don't know. I will have to go do some analysis 
on that.
    [The information referred to can be found in the Appendix 
on page 47.]
    Mr. Scott. I spoke to a contractor in an airport one time, 
and he suggested that he was making a very good living doing 
the repairs on buildings because of the DOD [Department of 
Defense] rules forcing the cheapest bid to be accepted instead 
of the best contractor being allowed to do the job.
    And I just wonder if there is a way that we could put some 
flexibility in there, where, when we had contractors that we 
had worked with, that we knew delivered a high-quality product, 
that we could select them based on their product and their 
quality that we knew they had instead of being forced to take 
the lowest bid.
    Mr. Chairman, I yield the remainder of my time.
    Mr. Wittman. Thank you, Mr. Scott. I appreciate that.
    I know that Chairman Thornberry, especially in the hearing 
yesterday, is very committed to that exact concept of best 
value as part of acquisition and making sure that we are 
looking at lifecycle cost, not just the initial cost, but the 
lifecycle cost. So I think that is an important point. It is 
certainly something we are going to continue to focus on.
    Thank you, Mr. Scott.
    We will now go to Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    I want to thank the witnesses.
    I want to give my special greetings to Admiral Smith. San 
Diego sends its warm greetings to you and to Kiki, as well. So, 
good to see you.
    You know, just speaking of my hometown, we have been 
battered through this El Nino storm by amazing records of 
levels of rain and weather patterns. We had a tornado warning 
in central San Diego for the first time that anyone can 
remember.
    It occurs to me that there are always challenges in all the 
waterside properties that you have, but I wonder if you feel 
like we are where we need to be with respect to storm water and 
maintenance in the face of these kind of extreme weather 
events, if there is anything we should be doing together to 
help you with these kind of sudden, unexpected weather events 
that we seem to be seeing.
    Admiral Smith. Thank you, sir. And I will ask the skipper 
at Oceana to go to a tactical level here in a second.
    But you are talking to our utility systems and storm water 
falls in our utility systems, or whether you are talking steam 
plants or energy or electricity, and that is an area that has 
been neglected over the years. And so we now have a process 
where we, enterprise-wide, rack and stack those from each of 
the installations and then prioritize those at the enterprise 
level to start getting those recapitalized across each of the 
installations.
    As you know, back at Coronado several years ago, we lost a 
14-inch water main. That was a World War II water main. And 
that caused some challenges there at Coronado several years 
ago. And that is another example where we weren't expecting 
that and had to shift funds that were programmed to go fix 
something else and get that waterline fixed so we could get 
that base up and operating.
    Lou, do you have specifics down at the installation?
    Captain Schager. Good morning, sir. Thanks for the 
question.
    At Oceana, I am also responsible for Dam Neck Annex, which 
is about 2\1/2\ miles of beach line, and so we regularly think 
about the effects of major storms, including hurricanes. This 
last year, we have spent over $7 million on a shore protection 
system, fortifying and bringing sand from a couple miles out, 
providing that barrier that we need for our installation, as 
well as doing small things like planting trees. My natural 
resources director, I think, has planted over 40,000--not 
herself, with other folks--along the beach line that help 
prevent that erosion.
    Further inland, with our infrastructure, it is--you know, 
Oceana came about in 1943, so I imagine a lot of the piping and 
the sewer is quite old, and that is something we are going to 
keep a close eye on as we continue.
    Mr. Peters. You know, one of the first things we did after 
I was elected to Congress, we voted $60 billion off budget to 
deal with Hurricane Sandy. No one likes spending that kind of 
money. You sort of get to a point where, when you are reacting, 
there is nothing you can do; you have to react. But we looked a 
lot into, you know, what to do about that and how to be 
prepared. And, in general, we found that for every dollar you 
spend on preparedness you save about $4 on cleanup, whether it 
is FEMA [Federal Emergency Management Agency] or the Small 
Business--probably the Navy too.
    So I guess what I am interested is, do you feel like we 
have a plan going forward, sort of, in general to prepare for 
these kinds of things to make sure that our bases, in 
particular, are prepared for these kinds of things so that they 
don't cost so much on the back end for cleanup?
    Admiral Smith. We have a plan, and we try to get after that 
plan. When you go down to the discussion we had up front of 
what our priorities are, those priorities for resiliency of the 
base from a utility perspective, while obviously very important 
and critical, don't rise to the same level of making sure we 
get ships underway, aircraft off the deck, submarines away from 
the pier, and making sure that our strategic assets are 
properly protected.
    And so they are important; we work at them. We are not 
working at them at the rate we would like to, but we have a 
plan to get after them.
    Mr. Peters. Okay. Well, I appreciate that.
    And, also, you know, we are trying to figure out how to fit 
some destroyers into San Diego, too, and you have a lot of 
things to balance. So I appreciate that the issue is difficult. 
If there are things that we can work together on along those 
lines, I would be appreciative knowing, particularly around 
NDAA [National Defense Authorization Act] time, how we can plan 
ahead a little bit, make sure that we are ready.
    And, again, thanks for coming, and thank you all for your 
service.
    I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Peters.
    We will now go to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    I represent the Kenneth A. Kesselring nuclear reactor 
training site located in Saratoga County, New York, and, as you 
know, the infrastructure investment at this site is critical to 
DOD's successful training mission, which directly impacts our 
national security.
    The unique training and R&D [research and development] 
missions of the Kesselring site demand sustainable 
infrastructure, facilities and equipment to train Navy sailors 
on how to safely operate nuclear reactors that power Navy 
submarines. And, thankfully, Congress recently fully funded 
this important infrastructure program, which maintains the 
viability of the site and enables an effective mission and 
distinctive capability to continue.
    But what concerns me is the method of moving funds that are 
already allocated to infrastructure and are being redirected to 
operations, which could be deemed a higher priority. And, as I 
see it, this can have significant impact on our Navy's 
readiness.
    So, Vice Admiral Smith, my question is: To what extent do 
you anticipate the method of redirecting funds from sustainment 
accounts over to other priorities? How much will this continue 
to occur? And is there a potential for this redirecting to 
directly have an impact on the readiness of nuclear training 
locations such as the Kesselring site?
    Admiral Smith. Thank you, ma'am.
    As you indicated, Kesselring is funded--that is a 
Department of Energy facility, as you know and are aware, and 
that has been fully funded.
    When funds are shifted from the maintenance to the 
operational, we, again, go back to that priorities and making 
sure that it does not impact or affect the nuclear triad and 
the strategic facilities and requirements we need to meet. So 
that is our number-one priority.
    And up there, from a quality-of-life perspective, which we 
have right now, we make sure that the quality-of-life mission 
is being met up there at Saratoga Springs and Kesselring.
    So the funds do get shifted out; that is when we go to our 
priority list and make sure that we are meeting our top-line 
requirements and then work down our priority list.
    Ms. Stefanik. Great.
    So, you know, you mentioned this earlier, and you sort of 
touched on this in your response. You said you have taken a 
deliberate level of risk on base operating support functions. 
So how are unique substantial nuclear training locations like 
Kesselring prioritized when making such a consideration?
    Admiral Smith. They are at the--I can't say they are at the 
top of the list. They are at the high end of the list. 
Specifically where they fall out, I don't know off the top of 
my head here, but we pay close attention to them, because, 
obviously, we have to make sure those crews are properly 
trained to be able to do their mission at sea. And if we do not 
provide the resources, the facilities, the instructors, and the 
curriculum to properly train them, they are not going to be 
ready to do their job, their mission at sea.
    And so we focus on that very closely so when those 
strategic assets leave port and go to sea to do the mission 
they are ready to execute and carry that out on a moment's 
notice.
    Ms. Stefanik. Great. Thank you very much.
    I yield back.
    Mr. Wittman. Thank you, Ms. Stefanik.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I certainly want to join my colleague in welcoming all 
of you here today but particularly Admiral Smith for the 
exceptional work that he did in San Diego. And I know, as you 
might know too, when you are in charge of a Navy Region 
Southwest, Southeast, you are really the Navy mayor for the 
city. And that makes a big difference to San Diegans.
    And I think that what was striking and, I think, always 
encouraging was the support for the men and women who serve in 
our Navy and really being focused on the quality of life. And I 
know, within that context, it must be especially discouraging 
when you say in the statement that, you know, you see some 
readiness disparities in the living conditions for sailors who 
are unaccompanied and those who are residing in family housing. 
And you note that there are 50 percent readiness disparities 
for sailors living in the barracks and 77 percent for those 
residing in family housing.
    So how do we square that, I guess? What can we do to 
balance the cost of modernizing the barracks while maintaining 
the safety of our most valuable asset, and, of course, that is 
the sailors below the--above--I am sorry--the 50 percent level?
    Admiral Smith. Yes, ma'am. Thank you. I am going to ask the 
skipper to talk a little bit about specifics at Oceana and what 
he is doing with his barracks there.
    But before I yield to him, as we focus on those top-line 
priorities, we also need to focus on the quality of life, as 
you mention, with barracks and housing. And so we do take care 
of those, not as fast as we would like because of the funding 
challenges. And so that timeline to get them to the quality 
that we want is taking longer than we desire, but we are 
systematically moving through those.
    Lou has got some barracks that he has programmed to work 
right now, and so I would ask Lou to talk specifics at his 
installation--number of facilities you have and which ones you 
are getting fixed and what that means from a timeline 
perspective.
    Captain Schager. Yes, sir.
    Thanks, ma'am, for the question.
    At Oceana, we have 13 barracks. Currently, 10 of them are 
rated substandard. I will say that we have a new barracks that 
is being built, a $30 million MILCON [military construction] 
project that we are very grateful for. That should be on line 
in March. Of those 10, we have 5 that are currently being 
programed and funded to get rectified and bring back up.
    And the moniker I use around Oceana, as far as when I look 
at public works and installations, we look at roofs, boilers, 
chillers, and fire protection. And that is kind of the mantra, 
and that is what we look at. So when we look at the barracks, 
those are the things that we are looking at to make sure are 
working, because we want our sailors and marines to have hot 
water in the morning. When it is hot out, we want them to come 
back after an 18-hour day on the fly line to be able to go back 
into a cool room.
    So, although we have still have a ways to go, I think that 
goes to the thought that we need to have a systematic, 
programmatic way of making sure these funding streams continue 
so that all of these barracks for the sailors and marines are 
brought back up to standard.
    Mrs. Davis. Uh-huh.
    Admiral.
    Admiral Jackson. Ma'am, regionally, as the installation CO 
[commanding officer] articulated, we make sure we understand 
the condition of all of our unaccompanied housing and have 
projects on the books to be able to work through modernization 
of those.
    I would like to give you an example of a case where we 
worked through a situation where some of our rooms and 
unaccompanied housing--in this case, it was at New Orleans--
where, because of some mold and some ventilation problems, we 
had to take the rooms off line. We just cannot have people in 
those rooms, so we took them off line. And we didn't have the 
inventory of additional rooms, and it had a direct impact to 
the operational forces that are working out in New Orleans.
    So we had to recode Navy Gateway Inns and Suites rooms, 
essentially hotel rooms, to be able to move those service 
members into those rooms, the Navy Gateway Inns and Suites 
rooms, until we were able to put a repair for ventilation and 
address the environmental issues in our UH [unaccompanied 
housing].
    So we didn't fix the problem, again, holistically, but we 
put a Band-Aid repair. And we did that by working very closely 
with our customer, talking to them about their throughput of 
personnel, and then also making sure that we were taking care 
of them. So sometimes it is about moving people and rooms 
around on the chessboard. The same thing occurs with hangars 
when hangars go down.
    Thank you, ma'am.
    Admiral Smith. So I would just add, so that is a great 
example of how we continue to meet the mission when these kind 
of challenges pop. So we didn't put any single sailors out on 
the street. Admiral Jackson, her team down at the base in New 
Orleans, took care of them. What we ended up doing is folks 
that would have used the on-base hotel, if you will, now had to 
go to a hotel out in town.
    So, not optimal, but it took care of our sailors, ensured 
they were being taken care of until we got the problem 
resolved, and then we were able to bring them back into the 
barracks. And we do that in all our mission areas all the time.
    Mrs. Davis. Thank you.
    Mr. Wittman. Thank you, Mrs. Davis.
    We will now go to Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you for your service and testimony here today.
    In the 2016 NDAA, we were careful to, on the overseas 
contingency dollars, to try to make them more fungible so that, 
if they could be directly related to contingency support, you 
might have some flexibility at your installations for that 
support. And you spoke here about hangars, COMMs 
[communications], airfields. I mean, those are mission-
essential elements that we see there.
    Can you speak to the impact that that may have, or will you 
be able to make good on some of that?
    Admiral Smith. I am going to have to go look and see 
exactly where we are spending our OCO [overseas contingency 
operations] dollars. I don't know where we are dividing those 
and specifically where we are using that budget line, at what 
resources, at what facilities to take care of. So I owe you 
that.
    [The information referred to can be found in the Appendix 
on page 48.]
    Mr. Russell. Okay.
    Admiral Jackson. Sir, in fiscal year 2011 and 2012, in my 
region, the Southeast Region, we were dependent on OCO. It was 
in the millions. And, last year, we were at half a million in 
OCO funds, and it went into my port OPS [operations] program, 
primarily for contracts to take care of some of the BOS [base 
operating support] support at my ports.
    So that will give you an example. I think we have worked 
hard to not be dependent on OCO, and that is where we have been 
moving.
    Mr. Russell. Yeah, we would all like to not be dependent on 
OCO, but I think, you know, in a bipartisan fashion, what we 
saw was that there was a need, and we tried to provide a little 
flexibility. It is baling wire and duct tape, but, you know, 
maybe it can go.
    You spoke on quality of life, and, having spent a career in 
the military, I understand how important that is, especially 
during deployments. Can you address that specifically, what 
your concerns are on the shortfalls? Because it is not often 
addressed; it is usually last on the list. And I would be 
interested in your thoughts there.
    Admiral Smith. So, when sequestration occurred, we had to 
reduce a lot of our quality-of-life facilities. So we reduced 
hours in the gyms. We reduced hours in our single-sailor 
facilities. We have now been able to buy some of that back, but 
when the budget starts getting pressurized more, that is where 
we go. So we still provide gym hours, we still provide the 
resource, we just don't provide the volume of it.
    Just this year, we have gone back and increased our gym 
hours an additional 4 hours every day. That has been very well 
received. We are increasing right now some of our CDC hours. 
Our single-sailor hours have come back.
    And so we watch that closely. I really watch that in our 
facilities that, what I refer to as over the horizon, so not 
metro areas, where there is not much to do outside the gate. We 
also, from a prioritization standpoint, focus overseas, focus 
in remote areas, and then focus in the metro areas.
    Lou, you can probably give a couple examples at the 
installation level of how you focus on quality of life and how 
you prioritize what you do and don't do.
    Captain Schager. Thanks for the question, sir.
    I know that for Fleet and Family Support Center services, 
those are crucial for quality of life for our sailors and their 
families. That peace of mind, when a sailor or marine is 
deployed, that their family can go to a resource which they 
know they can get support.
    I know recently the Navy has initiated two programs that I 
think are wonderful--the Navy Wounded Warrior Safe Harbor 
Program, the Navy Gold Star Program--two programs that are 
very, very important, as you know. But I think it is a zero-
sum, and a program that we are in the process of phasing out is 
the Relocation Assistance Program.
    So, in a perfect world, we would be able to keep all of 
these programs for these families, but we know that that is not 
the reality. And how do we mitigate that? Well, we ask other 
entities on our installation to see if they can assist in 
managing that Relocation Assistance Program.
    Mr. Russell. And you bring up a good point on the 
mitigation. In fact, there is a lot of political hay made 
about, you know, why do we have commissaries, why do we have 
base exchanges, why do we have those sorts of things. But I 
don't think there is a clear understanding, the impact of those 
dollars that come in to the MWR [Morale, Welfare, and 
Recreation] programs. And if you have sailors in a gym, they 
are fit sailors. That affects readiness.
    And so could you speak to that a little bit?
    Captain Schager. I know for a fact that our sailors love, 
and their families, love the activities that we have on the 
installation. My MWR team is very robust, and whether it is 
family fests we have quarterly or events around the holidays, 
especially for those families whose husbands or wives are 
deployed or children are deployed, it goes a long way and 
provides that great peace of mind.
    So I do think they are invaluable, and they are a great 
part in making sure that readiness is there. Speaking from 
firsthand experience, I know that when I am flying combat 
missions over Afghanistan what allows me to do that comfortably 
is know that my family is well cared for back home, both within 
the fence line of Oceana as well as outside the fence line in 
the community of Virginia Beach, which is wonderful. We have a 
wonderful relationship with the community there.
    Admiral Jackson. So we have an expectation that our 
commanding officers are getting a pulse on what their tenant 
commands need. And sometimes it is hard to quantify whether 
they are happy and getting the resources that they need. So 
that happens through the communications, the constant drumbeat 
with the tenants, making sure through tenant command meetings, 
through the senior enlisted command master chiefs, whether or 
not they are getting what they need.
    And then we tailor it. So Admiral Smith talked about what 
we might do at an over-the-horizon location because of where 
they are. Maybe they are remote; maybe they have better 
resources in town. And so then we can also tailor that and 
modify it. We have the ability to modify maybe the hours or the 
services they are getting or provide more of one thing, like 
more outdoor recreational facilities because of where they are 
versus another.
    And then another layer to that is what we do outside with 
the community and those relationships with the community and 
building support so that it is not just very insular at the 
installation but it is layered. And we get amazing support from 
all of our communities, but it is about our team getting out 
there and educating and making those relationships.
    Admiral Smith. If I may?
    So I have had the privilege of visiting 69 of our 70 
installations. And if you want to just kind of bin what I focus 
on when I go out and spend a day at an installation is I look 
at--I go and say, I want to see your worst stuff, I want to see 
what you are most proud of, and I want to see your quality-of-
life stuff. And so I get into the gyms, I go to the Fleet and 
Family Service Center, I go to Navy-Marine Corps Relief.
    I want to see that stuff, I want to understand it, because 
we are pressurized and we have challenges. And I want to know 
that installation X has got a challenge and installation Y has 
got a challenge, and I want to know which challenge is worse, 
because that is the one I am going to go out and focus on and 
get fixed.
    And then, you know, we also look in remote areas. So, as we 
go back to Saratoga Springs, we don't have a gym on that 
facility, so we have a partnership with the YMCA there locally, 
and we buy a membership for our sailors and their families. 
Because I want to make sure that they can be out in the 
community, I want to make sure that they can have a place for 
their kids to do stuff, they can go to the gym. I can't do that 
on the base, so we do that at the YMCA.
    So we focus on that very carefully wherever we are to make 
sure our families are being taken care of. We are an All-
Volunteer Navy, we are an All-Volunteer Force. We have to 
provide for our sailors and our families.
    Mr. Russell. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Russell.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    Admiral Smith, I am trying to again sort of get the 
timeline of the 2013 budget resolution, the one we just passed 
in the fall, the omnibus, and just sort of how that sort of is, 
you know, flowing into your decision-making process.
    Again, you just described a moment ago how you were able to 
restore some gym hours, which I guess was probably sometime in 
2015?
    Admiral Smith. Yes.
    Mr. Courtney. So, obviously, you are still living with, you 
know, the 2-year 2013 budget resolution and the prior omnibus. 
So now we have a new omnibus that is, you know, 3 weeks old.
    And just, again, if you could just sort of tease that out a 
little bit in terms of what you are anticipating. Or have you 
digested it yet, even?
    Admiral Smith. So there are some things we have been able 
to buy back. So I had mentioned we take risk in grounds 
maintenance. We have bought back some grounds maintenance.
    Grounds maintenance isn't just necessarily about how pretty 
the base looks, which I think is important because if it looks 
good, you work good, but it is also important around our 
airfields. He is very concerned about his ground maintenance 
around the airfields, because if we are not maintaining that 
ground, it brings in rodents, it brings in birds, it brings in 
air strikes, and that becomes a safety and a mission impact.
    So we have been able to buy that back a little bit. We have 
been able to buy back some of the hours in the gym. We have 
been able to buy back some of the hours in our child 
development centers. So it is not huge gains; it is incremental 
gains.
    Mr. Courtney. Can you give, like, a percentage? I mean, is 
it, like, half?
    Admiral Smith. Expand that a little more.
    Mr. Courtney. In terms of--you are saying ``gains.'' You 
know, I mean, obviously, you are sort of using, like----
    Admiral Smith. Right. So let's just use the gym for 
example. And my hours may be off just a little bit. I think we 
were at 96 hours a week. We have gone up to 112. That is an 
example.
    Childcare was 12. We are trying to go to 16; in some 
places, we are going to 14. So it is a couple hours here, a 
couple hours there. But, in the case of child care, if you have 
someone that has to be at work at 5 o'clock in the morning and 
the CDC is not open at 5 o'clock in the morning----
    Mr. Courtney. That is a problem.
    Admiral Smith. They weren't open at 5 o'clock in the 
morning before. They were open at 6.
    Mr. Courtney. Right.
    Admiral Smith. But we are now starting to slowly roll out 
getting them opened at 5. And I can't just turn a switch and do 
that, because I have to do the hiring process, I have to do the 
training, I have to do the security vetting, but we are slowly 
working that.
    But, again, it is small stuff, but it does make a 
difference to the quality of life for our families.
    Mr. Courtney. And I think probably, you know, having these 
nail-biting, you know, moments when we finally get stuff done 
doesn't make it any easier for you in terms of planning. But, 
as I said, we finally now have an omnibus in place, so, you 
know, the horizon is clear at least till October 1. And then we 
have a budget resolution that actually goes into 2017.
    Admiral Smith. Sure.
    Mr. Courtney. So, you know, again, in terms of just your 
job, you know, I mean, are you in a better place than you were 
in 2014?
    Admiral Smith. I am in a better place. Yes, sir, I am.
    Mr. Courtney. Okay.
    Admiral, you look like you want to jump in.
    Admiral Jackson. I would just like to add, so we get the 
operating report from the CNIC [Commander, Navy Installations 
Command] down to the region, and it gives us predictability. It 
gives us the ability to articulate to our tenants what 
operating levels they can expect. It kind of takes out that 
angst of not really knowing what type and what level of 
services, the common operating level of services that they 
might get. So we are able to articulate that, and then there is 
a better understanding, and that is good.
    It also gives us the ability to stay on line with 
preventive maintenance. We are still, though, in reactive mode 
often. But that predictability planning and then planning our 
projects, having them on the shelf and ready so that we can 
execute early as opposed to waiting, waiting, waiting, and then 
getting inside the turning radius and not being ability to 
execute, is also very valuable.
    Mr. Courtney. Well, again, the 2-year budget resolution I 
think was a healthy move forward, and hopefully we can continue 
that without torturing you guys.
    And, Admiral, again, you are welcome to come up to Groton, 
to, you know, your old stomping grounds anytime.
    Admiral Smith. So I was up there last winter, and I will be 
up there the Thursday before Easter visiting the base.
    Mr. Courtney. Awesome.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you to each of you for your service. I appreciate 
what you do.
    I was wondering, given the trend of funding, that MILCON 
accounts below the model's requirement over the past few years, 
what level of investment and over what period of time do you 
think will be necessary to fully restore the readiness of our 
installations and our facilities?
    Admiral Smith. The current funding level is not going to be 
able to fully restore our installations. There is very little 
military construction dollars coming. The amount that we get 
budgeted for does not meet the requirement that we have.
    So, while the budget we have now is helping us make 
progress and moving forward, it does not meet the need that we 
have over the long term.
    Mrs. Hartzler. You indicated that earlier and that you are 
decreasing--you have 90--below 90 percent, and you talked about 
an index of 80 and something about it is decreasing at 2\1/2\ 
percent or something. I don't remember those numbers.
    But can you give us the dollar amount? How much money would 
you want Congress to invest in this infrastructure in order to 
help make up the shortfall and to help you catch back up to 
where you need to be?
    Admiral Smith. Yes, ma'am. Can I get back to you on that?
    [The information referred to can be found in the Appendix 
on page 47.]
    Mrs. Hartzler. Sure.
    Admiral.
    Admiral Jackson. Ma'am, maybe I can give you some numbers 
that we have looked at in our region.
    So, in Region Southeast, we have 16,000 facilities. Of 
those facilities, the plant replacement value for those 
facilities is $23.3 billion. I have condition indices for all 
of those facilities. And the percentage by value of those 
facilities that are in the ``poor'' or ``failing'' category is 
42 percent.
    So 42 percent of $23.3 billion, and then what you need to 
get them better, will give you a rough idea. But that is a 
number that I have for you.
    Thank you, ma'am.
    Mrs. Hartzler. I look forward to getting those figures, 
because that is certainly very important, that we have at least 
an idea of the goal of what is needed to fully have our 
infrastructure where it needs to be. So that is very helpful.
    And just as we go out and talk to the public and others 
about this, reduced readiness and the concerns we have had with 
the budget cuts, it really helps to have those specific 
examples that we can use.
    And I appreciate your example, Captain, about the hangar 
issue. That makes sense, as people come back from deployment, 
to be able to get in there.
    But can you give me some more specific examples of a 
decrease in readiness of our Navy because they haven't had the 
money that you have needed for the infrastructure investments 
that we have? So if you could give me three or four examples 
like the hangar one, that would be helpful.
    Admiral Smith. So Mr. Courtney just left, but I can give 
one up at New London. So Pier 15 up there, which is the pier 
that we have the floating dry dock at, we did our periodic 
inspection and found it was more deteriorated than we thought, 
so we had to take that pier off line.
    We have mitigations in place in case we have to do an 
emergency dry docking. We will now to go Electric Boat. We will 
lease their floating dry dock if we have to put a submarine in 
dry dock up there in an emergency.
    We want to get that thing back on line as soon as possible, 
you know, for the next scheduled dry docking, so we are fixing 
that. But we have taken those resources from other things that 
we would have gone and fixed of lesser importance to get that 
pier back.
    So we are still meeting mission, but we are deferring 
maintenance on something else, because that was an unexpected 
challenge that popped up. We realized that is a top-priority 
challenge because I have to get the pier fixed so I can use 
that floating dry dock. And so that is what we are going after.
    That is an example. I know, Mary, you have a couple.
    Admiral Jackson. Ma'am, in Kings Bay, the Trident Refit 
Facility has a dry dock, and we have chillers in that dry dock 
that are critical to the ability of the dry dock to operate. 
And the chillers have reached the end of their life cycle, need 
to be upgraded. And we didn't have the money to be able to 
update the chillers and do all the controllers with it.
    So we replaced a chiller, but we are not able to replace 
the supporting controllers. So we are in a condition right now 
where we often have to operate those chillers manually as 
opposed to the way they were originally and ideally designed. 
So that is one example.
    Another example that will drill down to some specific 
numbers is I have--every naval aviator that is going through 
training goes through my region to one of my installations, so 
a lot of naval aviation training. One of my biggest customers 
is the Chief of Naval Air Training.
    So my airfields, such as Whiting, Jacksonville, Meridian, 
we are looking at everything from pavement indices, whether the 
pavement on the runways is appropriate, hangar facilities, just 
envelopes of buildings.
    So an example in Pensacola is that we have a hangar 
suppression system that is not operating. Again, it is towards 
the end of its life cycle. It had Band-Aid repairs to it. In 
the past 4 years, we have had it dump, suppress, eight times, 
which is not ideal to happen on aircraft, causes problems to 
the warfighter directly. So that means we have to not use those 
portions of the hangar. And that correlates to 17 percent less 
available space for those training wings that are trying to 
operate out of those hangars.
    So that is an example that has some specific numbers. Thank 
you, ma'am.
    Admiral Smith. So I can give you another airfield example 
at Naval Station Norfolk, where the AMC [Air Mobility Command] 
terminal is the apron there. That is a part of the apron that 
needs to be repaired. It has challenges. But we can make it 
work, because the sailors and airmen go out every morning and 
do a walk-down of the apron for 35, 40 minutes, 25 sailors, 
airmen, to go out and do that. So they go out and police it, 
make sure there is no foreign object or debris on the apron, 
and then we can use their apron.
    But that is 45 minutes of an individual that is going out 
and doing that instead of something else, instead of training 
or making--whatever, repairs, maintenance. And so we make it 
work, but that is a project that we would like to get--will 
eventually get funded, but right now it doesn't meet the 
priority, so it is impacting the sailors and the airmen.
    And, Lou, I know you have an example.
    Captain Schager. Thanks for the question, ma'am.
    At Dam Neck Annex, we have a facility, the Navy-Marine 
Corps Intelligence Training Center. It is where information 
dominance sailors, information warfare specialists are 
training. And, in the last year, fiscal year 2015, we had 57 
calls that the fire department had to respond to. And these 
weren't fires. These were various things like water leaks, they 
were orders, they were sensor faults.
    Each time that call goes out, you have to have all these 
students leaving the building. It is disrupting their training. 
We mitigated that, of course. You know, the instructors and the 
sailors and the students eventually got their training done, 
and they are executing very well out in the fleet right now.
    But, in the short term, we are putting a Band-Aid on it. We 
have a couple hundred thousand dollars going this year to help 
those fire protection systems as well as others, but it is a 
$12 million unfunded project to really, truly fix the problem 
and not treat the symptom. And that is another example.
    Mrs. Hartzler. Great. Thank you very much.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    We will now go to Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    I appreciate our witnesses here today. Thank you for your 
leadership and your families for their sacrifice.
    Much of what I was interested in has been addressed, 
specifically with regard to base operations and quality of life 
and the impact on retention of high-quality sailors and 
marines. But perhaps we can put a finer point on it. Let me 
frame it. I would be very interested in your feedback.
    Is there any specific data and analysis of the stress that 
you have done well communicating in terms of impacts on 
retention and maybe a little bit more on systemic programs you 
have in terms of getting feedback? Some of that has been 
addressed, but if there is anything more you want to mention in 
terms of how you get the feedback from your sailors and 
marines.
    And then with regard to specific programs, we have heard 
today about housing, child development, MWR, single sailor, and 
that was helpful to get that report. And particularly, thank 
you for being creative in your support of families. You talked 
about the YMCA membership. That is very helpful.
    I am thinking in terms of one of the things I remember from 
the Army is--which in some ways we were gaining in some of the 
experiences that you guys deal with forever, and that is the 
repetitive deployments. And, you know, one of the ways the Army 
addressed that is we had this program, ``Building Strong and 
Ready Families,'' where after a deployment, a family would 
actually be funded to do an off-site. And, you know, the family 
would go together. It would be a nice place either by the water 
or maybe up in the mountains, and there would be, then, experts 
who would come in and help with the reintegration process. 
Chaplains would head this program, and they had counselors that 
came in and just a lot of insight. It was very helpful.
    And then, similarly, we brought forward a program that had, 
like, life counselors that were brought onto base to help 
particularly the younger folks just dealing with the stress of 
everything that is going on. So I am interested in, you know, 
perhaps some thoughts on that.
    And then also, finally, schools, any impact in terms of any 
of that. So really sort of an open-ended question to pursue a 
lot of, I think, the great testimony you have already brought 
forward on quality of life, but maybe with a little finer point 
on how that is impacting retention.
    Admiral Smith. Yes, sir. Thank you. So I am going to defer 
to Lou in a couple of minutes to talk specifically how he works 
at the installation, and he has a process in place to do that 
to get the feedback that you asked for, but much like you 
describe for the Army, it is--Force Master Chief right back 
here, on the deck plates, out and about talking to sailors, 
talking to families. It is me out and about talking. It is all 
of us out and about talking to our sailors and getting that 
feedback: How are things going? What are the challenges? What 
do you need? We have our Fleet and Family Service Centers. We 
do return and reunion seminars on all our--with our squadrons 
and our ships when they come back for reintegration. Much like 
you have offsites, we have a CREDO [Chaplain's Religious 
Enrichment Development Operation] program where our families 
can sign up and go spend a weekend on whatever specific topics 
are that that CREDO is focused toward.
    In our schools, you know, we have our school liaison 
officer program that helps transitioning families from one 
location to another, getting them integrated into the school. 
The program is working superbly, from my perspective, right 
now, very good.
    So what I am giving you are informal processes to get that 
feedback to understand what the pressures are on our families, 
what the challenges, concerns are, so then we can go off and 
attack them, bring up, start up new programs so our programs 
are working correctly in our Fleet and Family Service Center.
    What I would do is I would ask Lou now to talk specifics 
how he gets feedback on his tenants on the issues and 
challenges that he has seen at Oceana.
    Captain Schager. Thank you, Admiral.
    Thank you, sir, for the question.
    Thank you for your service as well.
    There is a, on a higher level, on the installation level, 
there is a senior level survey that goes out yearly, and we 
receive that feedback directly from the tenant leadership, but 
as the admiral mentioned, my best feedback comes back from 
walking around and talking to sailors and talking to families, 
which I like to do all the time. I would rather be doing that 
than emails, like most.
    We also have other avenues, MWR and through the CDC and, 
you know, child development centers and child and youth 
programs. There are boards there that the parents chair and 
provide some feedback, and I see those as well. There are a lot 
of different avenues, but a specific quantifiable data point, I 
don't specifically have for you, sir, but I know that--you 
asked about schools also. To continue the admiral's thought, 
with our school liaison officer, you know, at Oceana, being at 
Virginia Beach, and I also have Fentress--outlying airfields in 
Chesapeake, the schools are amazing, but through that, we 
have--you know, a lot of times, sailors and their moms and dads 
have to work at 5 a.m., 6 a.m., so there is a program where 
they drop their children off on the installation at one of our 
buildings, and then we have buses, MWR will bus the students 
out to the city schools, and then vice versa. I mean, that 
relationship is--you can't put a number on that, and it really 
is great peace of mind for these families to know that their 
kids are cared for before and after school and, of course, 
while they are going to some wonderful institutions of learning 
in the cities.
    Admiral Jackson. Sir, I would like to brag about two 
programs in Southeast that, again, have talked to the 
tailorability of being able to respond to a request. So we have 
started a pilot program where out of Fleet and Family, we have 
developed a curriculum so that people who want to learn about 
how to take care of ailing parents--so that is an example of 
something that wasn't part of our normal curriculum and the 
courses and the counseling that we provided, but we realized 
there was a real demand, so we put that together, rolled it 
out, piloted it. That is one example.
    Another example is we continue to work toward resiliency of 
our force and sexual assault and prevention. We started some 
self-defense courses that had not previously been something 
that we had in our toolkit, and now we have added that. So 
there are some examples of--the closer we are to understanding 
the needs, then we have the ability to work within some of the 
controls that we already have to be able to provide these 
resources, which are so valuable to our force.
    Mr. Gibson. Thank you to all the witnesses for that 
testimony.
    And just one quick follow-up, Mr. Chairman, if I may.
    And I know this goes across jurisdictional or functional 
lines, but so you haven't, just to confirm, there has been no 
red flags as far as retention is concerned for the Navy? Based 
on the stress on base operating support and quality of life, 
you are not getting any feedback from SECNAV [Secretary of the 
Navy] and Navy that that is something that----
    Admiral Smith. I am not personally aware of.
    Mr. Gibson. Thanks, good. Great report.
    Yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Gibson.
    I want to draw the association between what you have laid 
out with installation support, infrastructure, and readiness. 
And you all have laid out a number of those different elements, 
but Captain Schager, I want to go to you to kind of get your 
perspective as a base commander.
    As you look at the things you have to deal with, you have 
decisions and directives coming down from corporate Navy 
saying: Here is the installation support you need to provide. 
Here is the infrastructure we want you to provide.
    So you get that direction. Obviously, you have to respond, 
because there are the unexpected elements of what goes on. Your 
job is to provide that mission support for training and 
operations there on the base, so you have to reconcile those 
two things. Your job is to do those things while making sure 
that you are generating readiness.
    So my question is this: As you are juggling all those 
different pieces, give us a specific example--and you have 
given some, like a hangar that didn't have some fire 
suppressions in certain areas--but take the next step further. 
What does that mean as far as operational readiness? So while 
you may not be able to keep aircraft there, what does that mean 
as far as training missions? What happens in reduction in 
training missions? What happens in deployment schedules? What 
happens with all the things that potentially stack up? So if 
you can take that the next step, and that is, in generating 
readiness and making sure that as your air wings are coming in 
there and doing pre-deployment training or getting ready to do 
workups to go for the carrier to leave, give me an example 
about how that infrastructure, how that installation support, 
how that facilities capability totally affects what you are 
having to generate every day.
    Captain Schager. Thanks for the question, sir.
    You know, what helps is I was a recipient of this customer 
service for the last 24 years. And having operated at Oceana 
for a majority of my career, both as a young pilot and 
continuing on to the squadron commander level, I recognize the 
importance of making sure that the runway is ready to go when 
we have sorties available.
    I will say, and I want to thank you again, we have a 
special project currently underway, $100 million project, to 
replace the aging lighting system on our airfield. It is 1950 
technology. When I first came into this position as the 
executive officer of the installation, I think the first night, 
we had one of the electrical vaults, you know, went out, which 
meant half of the airfield went out as far as lighting. And for 
a base that needs 24/7, 365 kind of support, that was very 
disconcerting.
    So this $100 million is greatly needed, and that is kind of 
an example of the process working. Those requirements were 
articulated well before I got there, and we finally had the 
funding. But to continue on to that discussion or thought, at 
Oceana, we also have VFA-106, which is the Fleet Replacement 
Squadron. That is the home of the East Coast training for new 
pilots and WSOs--weapons systems officers--to become fleet 
aviators. You know, they are held to--their structure and their 
throughput is crucial to feed the fleet squadron so that they 
are fully manned when they deploy. And so we really can't 
afford a whole lot of delays, whether it is a lack of air 
traffic controllers or airfield lighting problems or hangar 
challenges, where they can't get the maintenance done because 
the hangar is not equipped.
    So I work closely with the commodore and the operational 
side. And we speak every day, and we talk about our needs and 
challenges. And he works up through his chain of command, as I 
do with mine. And I think that works well and that we are 
constantly checking and making sure that the readiness is 
available. And I will say that, you know, at least since I have 
been there in this position since--you know, the USS George 
Bush in 2014, with three F-18 squadrons from Oceana, the 
Theodore Roosevelt and now the Truman. Both those squadrons 
deployed ready. But as we described, the airfield renovations 
are greatly needed. If those are delayed any further, I think 
that would be a great impact.
    And the hangar situation as I described, I think to have 
that predictable programmatic funding for the hangars and get 
those repaired, I think will go a long way.
    Admiral Jackson. Sir, I think we are very good at finding 
alternatives when we need to, when we are in extremis and we 
know that the warfighter can no longer do what they need to do; 
they can't produce the pilots they need to or they can't train.
    We also work very hard to make sure that the process by 
which we look at all these projects are racked and stacked and 
that we are able to articulate from an installations 
perspective the direct correlation to the readiness, as you 
have asked. So an example is at Mayport, we have a wastewater 
treatment plant that is currently not meeting environmental 
criteria, and we are operating under a consent order. The 
relationship that we have with the Florida Department of 
[Environmental Protection]--the FDEP--our relationship with 
them is important. But it is also equally important that as I 
prepare these projects and push them up my chain of command, 
that I am able to articulate what will happen if we are no 
longer are able to use that wastewater treatment plant and what 
that will mean to the ships that are berthed in Mayport, that 
they may have to go to a different port or that we may have to 
pay to move the waste, which now has high levels of metals in 
it because we have increased the ship loading in Mayport, and 
be able to articulate that so that it is a unified front from 
the warfighter to the installation all the way up to articulate 
that readiness. And it is easier to articulate in specific 
projects than it is across the entire enterprise.
    Mr. Wittman. Let me expand upon that a little bit. As you 
look at your mission overall and then your job in supporting 
that mission, we know that you are looking at infrastructures--
you are looking at infrastructure. You are looking at 
installation support, trying to manage risk within that area, 
while at the same time our effort now is to re-establish full-
spectrum readiness. It is an arduous path to get there, and 
what you are having to do is to manage that through that 
resource gauntlet that we have gone through here recently.
    Let me get your perspective. As you are making those 
decisions and looking at how you balance those things, trying 
to get to full-spectrum readiness as quickly as we can, as Mr. 
Courtney pointed out, we are now with some certainty in a 2-
year budget, give us your perspective on how far you believe 
you can get within your mission set to get to full-spectrum 
readiness.
    And then, secondly, is, where do you see yourself in a 10-
year window down the road in a scenario of either level funding 
from this point on or back to sequestration levels because that 
also introduces a fair amount of risk? And the reason I ask for 
static funding levels is we are trying to regain readiness. So 
we have lost some in the last 3 years, and to regain that 
obviously is a challenge but also the slope of the curve we 
have to ascend to get there is also steeper. So give me your 
perspective within those scenarios about how you get back to 
full-spectrum readiness.
    Admiral Jackson. I suppose I am not as optimistic as 
perhaps others that we will get to full-spectrum readiness. So 
sequestration takes us a step back. Where we are today is 
holding--a little bit of improvement, as Admiral Smith 
articulated.
    To get to 100 percent funding still doesn't get us to full-
spectrum readiness because we have degraded so significantly 
over time. So it is hard for me to imagine how we get as far as 
we need to, to get to full spectrum.
    Admiral Smith. At our current funding and if we continue 
that out, we will continue to lose ground. And if we were to 
get to the OSD funding level of 90 percent, that is only 90 
percent of an already deteriorated infrastructure. So to get 
back to 100 percent, you have got to shoot ahead of the duck, 
and we are not shooting ahead of the duck.
    Mr. Wittman. Let me get this perspective from you, too. Not 
only are you having to look at recapitalization on existing 
assets, you are also faced with new mission sets. You have 
Littoral Combat Ship. You have the P-8. You have an upcoming 
Ohio-class replacement. All of those things, too, those new 
mission requirements also create new demands on infrastructure. 
So how does that exacerbate your challenge in just trying to 
maintain status quo when those new mission sets are set upon 
that and the challenges that you have to face there with 
infrastructure and installation support?
    Admiral Smith. So a couple of things I would like to talk 
to. First is the process and how we accommodate those new 
mission sets and how we understand what the requirements are. 
So we have a strategic laydown dispersal process where when 
those new mission sets come out and we as a Navy and as our 
operators, our forces, decide where they want, we want--those 
assets need to be to meet our country's mission, we then go and 
look at those installations, whether it be the skipper or one 
of the other 69 COs and saying, you are getting this asset, 
whether it is people, a submarine, a squadron, whatever it is. 
Can you accept them with what you have got? Do you have the 
pier? Do you have the runway? Do you have the hangar capacity? 
Do you have the housing? Do you have the child development 
centers? What does it do to your wait lists in those different 
things? And then they come back and feed that into the regional 
commander. And then she racks and stacks that, and it comes up 
to us. So we now know what the requirement is and what our gaps 
are and what we need to do. And those gaps then generate 
requirements that Lou will then at Oceana create and then pass 
through the regional commander. And then that then gets pushed 
up so we now know what we have. Then we go down with the 
priorities. Those are going to take the priority to make sure 
that we can meet those new mission sets. When those come in--
that gets to your question--that pressurizes the discretionary 
funds we have to do existing things. And those are directed, so 
they are going to get funded.
    Mr. Wittman. Right.
    Admiral Smith. And that is a good thing because we need 
that capability.
    Mr. Wittman. Sure.
    Admiral Smith. But it does, as you say and indicate, 
pressurize further on existing assets that we have that are 
declining.
    Mr. Wittman. So in your rack-and-stack scenario then, if 
you are placing that new mission set requirement there and you 
have to provide infrastructure installation support for that, 
does it then push out other things that are on your 
recapitalization list that say, well, we just--now we won't be 
able to do that because we have these additional requirements 
that we have to find resources for?
    Admiral Smith. Yes, sir, it does, and that is what puts us 
into the reactive mode that we have talked about and how Mary 
down in New Orleans reacted to fix the mold challenge she had 
in the UH, as an example.
    Mr. Wittman. One last question is, how are these new 
mission sets affecting the size of the things or the number of 
items that get pushed out because of that? And if you don't 
have it now, just take it for the record and get it back to us, 
but I think that is critically important for us to understand 
because that gives us some measure of the magnitude of the 
issue that we are dealing with.
    Admiral Smith. Sir, I will take that. I am trying to 
quantify in my mind, and I can't do it justice here.
    [The information referred to can be found in the Appendix 
on page 47.]
    Mr. Wittman. If you can do that because that is going to be 
extraordinarily important for us as we are going into this 
year's NDAA to make sure we quantify that because people have 
to understand the magnitude. And the reason behind these 
hearings is to make sure we draw a direct association between 
infrastructure, installations, and facilities support with 
operational readiness and restoring full-spectrum readiness, so 
we need to get a gauge on where the gaps are and then the path 
to get back to full-spectrum readiness. So if you could provide 
that to us, that would be great.
    And now I am going to go to Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And Vice Admiral Smith--or the other witnesses here--could 
you please describe at what level the connections are being 
made between the training requirements of a unit and the 
ability of an installation to support those training 
requirements, and how often are they re-evaluated? And as a 
follow-up, have you found the Facility Condition Index to be an 
effective system for tracking maintenance needs?
    Admiral Smith. Yes, ma'am. I will start off and then ask 
the two of them to add on.
    Bottom line, those decisions are being discussed at all 
levels. The skipper talks to it with his tenants and 
requirements and needs. Admiral Jackson does it at her level, 
and I do it at my level. So we have talked about the strategic 
laydown dispersal process, generating requirements. The 
Facility Condition Index code that you talk about, that is very 
accurate. We track that closely so we know what the condition 
is of every single one of our facilities. That then feeds into 
the priority list that we have talked about.
    So when it comes time to figure out what we are going to 
fund, we use an integration process at the regional level. So 
Mary will take all of her installation requirements, and all of 
those projects have been prioritized and we have a ranking 
formula we use based upon safety, based upon operational 
necessity, based upon condition, and that prioritizes it.
    So she will in her region prioritize that out, push it up 
to me at the enterprise level, and then I will take in all 11 
regions' requirements and then we--I sit down because she has 
already done this at her level with the fleet at the region. 
And then I do it with the fleets. I sit down with PAC [Pacific] 
Fleet. I sit down with Fleet Forces Command. I sit down with 
OPNAV [Office of the Chief of Naval Operations]. I sit down 
with the SYSCOMs [Systems Commands], and we look at how that 
prioritization came out to determine what we are going to fund.
    So to double back to your original question, we address 
that at all three levels, and we use the Facility Index Code, 
Condition Index, very closely to do that.
    So, Mary, I would turn it over to you for your area and 
then ask Lou at his installation level.
    Admiral Jackson. Ma'am, I have been doing installation 
business for about 5 years, starting in Naval Station Norfolk, 
and I would say, over those 5 years, we have gotten much more 
rigorous in understanding how we have to articulate our 
requirements tied to readiness as we go forward. And we do 
that, as Admiral Smith said, at all levels. Our installation 
COs, as the landlords, have to be talking to their tenants to 
be able to quantify that. And I say this somewhat in jest, but 
it does become a bit of a competitive environment. Every CO is 
fighting for their projects, and they have to have it as clear 
and as concise and as tight as they can as they move it up to 
me at my level at the region. And the process that Admiral 
Smith articulated through a regional mission integration group 
[RMIG] up to the SMIG [senior management integration group] is 
very valuable. And we have warfighter representation at the 
region level. We have it at the CNIC level as well, so it is 
not like we are doing it without them.
    Another process that Admiral Smith has continued in his 
tenure as Naval Installations Command is something called the 
``warfare enterprise flight officer assignments,'' in which he 
has regional commanders, usually tied to their warfare 
specialty, assigned to be the linkage with that warfare 
enterprise. So, for myself, I am a surface warfare officer, so 
I support the surface warfare enterprise. And I have a regular 
drumbeat to talk globally, not just my region, about those 
projects and those things that are going on in CNIC that should 
be of interest to the surface warfare enterprise, and vice 
versa. They talk to me about what they are concerned about so, 
again, we get that unified front. And that ``warfare enterprise 
flight officer assignment'' exists for surface warfare, for 
strategic programs, of which I also have, naval aviation, 
information dominance, and undersea enterprise. So that is 
another means--it is another layer by which we are able to make 
sure we understand the requirement.
    Thank you, ma'am.
    Ms. Bordallo. Captain.
    Captain Schager. Yes, ma'am. Thank you for the question. 
And as I mentioned before, I was the recipient of customer 
service for many years. Now I am the provider of that. And 
around my installation, when I talk about it, I talk about 
providing great customer relationships, not just service and 
that--communicating with all my warfare commanders and 
leadership, whether it is the Commodore of the Air Wing, if 
they had a bad day--even irrespective of facilities, it was a 
bad weather day, and we have to fly on the weekend--I am aware 
of that that day.
    I mentioned the example about the intelligence school which 
was having a lot of fire alarms go off and how that affected 
their training. Their leadership was calling me up, and I put 
that into my calculus. When the regional mission integration 
group meets, I bring those topics up. And I can speak 
eloquently--well, I like to think I can--because I have spoken 
to those folks. And their leadership is also in that decision 
process. So, you know, naval aviation is also in the room at 
the RMIG--it has the information dominance.
    And so, through that, I think I am comfortable that the 
requirements that our tenants are looking to achieve are 
articulated on our side so we can provide the facilities 
necessary, prioritizing as such.
    Ms. Bordallo. So I am gathering, then, that the systems are 
working?
    Admiral Smith. Yes, ma'am.
    Ms. Bordallo. I have another question real quickly. This is 
to Rear Admiral Jackson or perhaps the captain.
    Earlier you gave an example of hangar maintenance and how 
the lack of predictable FSRM funding can impact facility 
maintenance plans. Now, can you provide similar examples on the 
base operating support program, specifically how repeated 
reliance on continuing resolutions, late appropriations, and 
the lack of predictable funding has impacted base operating 
support?
    Captain Schager. I can start, ma'am. Thank you.
    Commonly, when someone like, you know, from my family, for 
example, we talk about readiness and going out to war and doing 
combat missions, they think about the aircraft I am going to 
fly, and is that ready? But there is a lot more to it. And so 
when you mentioned base operating support, it is, do the 
sailors have a room to go back to that is comfortable and 
heated and hot water? Do they have a galley that is ready? Do 
they have the Fleet and Family Support Center that is providing 
the services? So it is not just the runway; so the full 
spectrum of support affects readiness.
    And as we had spoken and both admirals have articulated, we 
are taking risks. The mission is still being met, but I do 
think that if it is not properly funded in years out, I think 
things will--you know, the risks are going to get greater.
    Ms. Bordallo. And in a timely manner.
    Captain Schager. Yes.
    Ms. Bordallo. Rear Admiral.
    Admiral Jackson. Ma'am, when we started decreasing our BOS 
because of the continuing resolution and sequester, the areas 
that we saw it the most were in FX, so facilities--excuse me, 
ground support, so ground maintenance; TR, transportation 
vehicles; and then also utilities. And so our customers feel 
the effects of that. And it is more than just cosmetic, to give 
you an example in ground maintenance. So the higher grass may 
mean increased pest control. It may increase greater risk in 
the BASH [bird/animal strike hazard] program for our aviators 
as they are flying. For TR, it may mean they have less ability 
to get vehicles to move things around that they need to do. And 
so that is where we have felt it in terms of BOS. And, of 
course, as we have been able now to increase those common 
operating levels in that and articulate that back to our 
customers, that is good.
    Ms. Bordallo. Vice Admiral.
    Admiral Smith. Yes, ma'am. So a CR, it just makes the 
process harder. It creates uncertainty for our workforce. We 
can't execute projects. We can't do design until the CR is--we 
are through the CR. So now you are doing things--you are 
awarding contracts on top of each other, and we can't spread 
the work out--workload out over the year, and so we are either 
doing it in 9 months, or we are doing it in 6 months, what the 
requirement is. And, of course, that increases workload. It 
increases stress. And so it comes down to it just makes the job 
harder. We still get it done, but it just makes it more 
difficult.
    Admiral Jackson. And every time you have to change a 
contract, that takes time. It is not free. So as you decrease 
operating levels, it is not like you just stop cutting the 
grass. You have to go in and do contract mods [modifications], 
and that is people, and that is time. And so that has a drain 
as well.
    Thank you, ma'am.
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    I want to thank our witnesses today, Admiral Smith, Admiral 
Jackson, and Captain Schager. Thanks so much for joining us. 
Thanks for your responses today.
    We would ask that you provide the written responses that we 
have asked for. We will be using them as we put together this 
year's National Defense Authorization Act, which, by the way, 
is going to take place earlier this year by a 3-week window. So 
we are going to push things to the left and hopefully get our 
jobs done more quickly so we can get the appropriations part of 
this done more quickly too.
    So, again, thanks very much for your service. Thanks for 
your perspective today. This is very, very helpful to us, and 
we will continue the conversation with you.
    Thanks again.
    And our subcommittee hearing is adjourned.
    [Whereupon, at 9:27 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            January 8, 2016

=======================================================================

      
             PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 8, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 8, 2016

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. WITTMAN

    Admiral Smith. The new ships, submarines, planes, and weapons 
systems often require changes in facilities; examples include pier 
extensions and widening, dredging depth increases, stronger runways, 
secure mission spaces and utility modifications. The new mission sets 
also often require re-designed and upgraded training facilities and may 
drive new administrative and security requirements at Navy bases and 
support locations world-wide. In addition to new systems, changes to 
the strategic laydown of Navy Forces also call for new capabilities, to 
support changes in the number of personnel, dependents and operational 
units. As we prioritize our limited facility investments to enable 
operational readiness, we underinvest in supporting infrastructure--
such as barracks, administrative buildings, and research and 
development facilities--all of which support future readiness, improve 
the quality of life for our Sailors, and enhance the working conditions 
of all our personnel.   [See page 26.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    Admiral Smith. Significant investment is required to increase the 
overall condition of the Navy's infrastructure to achieve steady state, 
sustained readiness across the installations and facilities portfolio. 
As reported in the Department of Defense's FY15 Financial Report, Navy 
has a backlog of approximately $41.8 billion of deferred restoration 
and modernization requirements across all shore infrastructure. Navy's 
current facility condition is at 79. To eliminate the projected 
additional \1/2\ point each year decline over the FY17 FYDP at current 
budget levels, our models show an additional $620 million of facilities 
sustainment, restoration and modernization is required annually.   [See 
page 18.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT
    Admiral Smith. There is no standard Navy definition for 
obsolescence. Navy buildings are designed for a specific service life, 
which will vary by function and type of facility. Since not all 
buildings are designed to last the same number of years, it is 
difficult to develop an obsolescence metric based on the age of 
facilities.
    DOD uses a metric called facility condition index (FCI) which 
provides an overall rating of the condition of a building based on 
repair costs of its subsystems compared to the replacement cost of the 
subsystem. The Navy provides an annual report to DOD on the number of 
buildings with an FCI less than 60 (which is considered failing) as 
well as the planned action for each building (demolition, repair, 
replacement, disposal, etc.)
    Of those failing facilities, some are not necessarily obsolete but 
are considered excess inventory, and are disposed of through 
demolition, transfer, or sale. Others still have a valid mission 
requirement and are slated for repair or demolition and replacement. 
These could be considered obsolete since they can no longer meet all of 
their mission requirements.
    In 2015, the Navy reported 2,123 buildings that are slated for 
repair or demolition and replacement in the FYDP.   [See page 7.]
    Admiral Smith. Navy consistently utilizes best value source 
selection procedures to select the proposal representing the best value 
to the Government. In accordance with the Federal Acquisition 
Regulation, the best value can be obtained by using either tradeoff or 
lowest price technical acceptable source selection procedures. The 
tradeoff process is appropriate when it is in the best interest of the 
Government to consider award to other than the lowest priced proposal. 
The lowest price technically acceptable process allows for selection of 
the technically acceptable proposal with the lowest evaluated price 
that will adequately satisfy the government's minimal requirements. 
Navy carefully reviews each requirement when making the determination 
whether to use tradeoff or the lowest priced technically acceptable 
procedures.   [See page 8.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. RUSSELL
    Admiral Smith. CNIC supports 70 Installations throughout the world. 
OCO resources are requested and used for base operations support, 
facility maintenance and quality of life programs at only three 
overseas locations.   [See page 13.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 8, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. To what extent do the reported readiness levels of 
installations take into consideration the condition of their 
facilities? Are there other metrics or data points used to assess the 
effect of facility condition on readiness?
    Admiral Smith. The condition of installations' facilities plays an 
important part in the reported readiness levels of those installations. 
Installation Commanding Officers are required to report the readiness 
of their installations against capabilities and assigned Navy Mission 
Essential Tasks (NMETs) in the Defense Readiness Reporting System-Navy 
(DRRS-N). Frequency for reporting is every 30 days or when the status 
of readiness changes. Additional information is displayed in the DRRS-N 
Facility (F) Resource Pillar, including facility condition, to assist 
Commanders on the availability and shortfalls in facility resources 
required to deliver capabilities and their associated NMETs. 
Installation commanders use (F) Resource Pillar data to make informed 
assessments of their installations readiness and ability to accomplish 
assigned NMETs and capabilities to support operational and training 
requirements.
    Other facility based metrics include a Facility Condition Index 
(FCI) that quantifies the financial liability of needed maintenance and 
repair work for each facility. This metric will better position Navy to 
direct our limited facility funds to the most critical repairs. This 
information is also being used by facility professionals to develop 
short- and long-range maintenance and repair work plans. In addition, 
we are incorporating the principles of condition-based maintenance 
across all buildings, utilities and structures. This means we will 
prioritize work toward the most critical components at our most 
critical facilities or on components that relate to life, health and 
safety. This strategy enables us to focus resources on specific 
building components and systems where failure jeopardizes personnel 
safety, operational readiness and warfighting missions.
    Mr. Wittman. How has the Navy attempted to quantify the risks they 
are taking by perennially reducing their investments in base support 
services and infrastructure, if at all?
    Admiral Smith. The Navy has several processes in place to assess 
risk as we deliberately and carefully accept it in certain areas of 
shore readiness. We use the principles of condition-based maintenance 
to identify specific building components and systems where failure 
jeopardizes personnel safety or a warfighting mission. In addition, we 
have standardized our facility inspections and are in the process of 
transitioning to Facility Condition Index (FCI), which enables us to 
quantify the financial liability of needed maintenance and repair work 
for each facility. Regarding installation support services, in 
particular base security and emergency services, the Navy uses 
dedicated analytic models to program the resources needed to meet the 
requirement and to validate we are meeting the budgeted requirement in 
execution.
    Mr. Wittman. What is the impact of funding sustainment, restoration 
and modernization and military construction below requirements over the 
long term? What level of investment and over what period of time do you 
think will be necessary to fully restore the readiness of our 
installations and facilities?
    Admiral Smith. Long-term underinvestment in our shore 
infrastructure will cause our facilities to degrade and our overall 
facilities maintenance backlog will increase. This means our 
infrastructure will be less efficient and less capable when it comes to 
supporting the warfighter. In addition, as we defer needed facility 
investments year after year, they generally become more expensive.
    As reported in the Department of Defense's FY15 Financial Report, 
Navy has a backlog of approximately $41.8 billion of deferred 
restoration and modernization requirements across all shore 
infrastructure.
    Navy's current facility condition is at 79. To eliminate the 
projected additional \1/2\ point each year decline over the FY17 FYDP 
at current budget levels, our models show an additional $620 million of 
facilities sustainment, restoration and modernization is required 
annually.
    Mr. Wittman. What impact has the substantial reduction in MILCON 
spending had on the ability of installations to support readiness and 
serve as power-projection platforms? How has significant new mission 
beddown requirements impacted ability to recapitalize existing mission 
facilities?
    Admiral Smith. Navy's Military Construction program is focused on 
providing maximum readiness to support current and new mission 
requirements, and we prioritize projects that directly enable 
operational readiness and the initial operating capability of new 
platforms and systems. Reduced budgets compel us to increase the risk 
Navy is taking in recapitalizing our shore infrastructure, forcing us 
to continue deferring vital MILCON projects until we can get some 
fiscal relief.
    Mr. Wittman. Why has the Navy slowed their implementation of 
Utilities Privatization efforts? Does the Navy plan to continue the 
program on their remaining utility systems? If not, why?
    Admiral Smith. The Navy fully intends to continue the Utilities 
Privatization program where economically feasible and in support of 
evolving resilient, cyber secure and energy efficient directives and 
initiatives. We have an ongoing study, expected to complete in CY16, to 
determine if there are other areas of infrastructure that Navy can 
privatize. In addition to privatization, the Navy utilizes Utility 
Energy Service Contracts (UESC) to improve utility condition and 
performance while reducing energy consumption. For example, we have $7M 
(est) UESC effort under development at SUBASE New London which is 
projected to reduce consumption by 12%.
    Mr. Wittman. Are there any legislative gaps or impediments that 
hinder implementation of Utilities Privatization? Does the Navy need 
specific funding authority for UP contracts or other changes in 
authorities to allow program implementation to be more efficient?
    Admiral Smith. Current legislative authority (10 USC 2688) is 
sufficient.
    Mr. Wittman. Have reductions in civilian- or contract-provided 
services for utility system operations; installation equipment 
maintenance; engineering services including fire protection, crash 
rescue, custodial, refuse collection, snow removal, and lease of real 
property; security protection and law enforcement; and motor pool 
transportation operations impacted availability of facilities that 
support operations and training?
    Admiral Jackson. Base services and shore infrastructure remain a 
key component to support and enable operations and training. The Navy 
has accepted an increased level of risk across a broad range of 
installation services including grounds maintenance, custodial, and 
transportation while preserving services and support in installation 
programs that directly support Fleet operations and training (e.g., air 
operations which includes air traffic control, ground electronics 
maintenance, etc.). Within programs that have seen significant service 
level reductions, like grounds maintenance, the Navy strives to 
maintain required capability to ensure operations and training 
readiness (e.g. funds grounds work to maintain clear zones around air 
fields and ordnance facilities).
    Mr. Wittman. What is the impact of funding sustainment, restoration 
and modernization and military construction below requirements over the 
long term? What level of investment and over what period of time do you 
think will be necessary to fully restore the readiness of our 
installations and facilities?
    Admiral Jackson. Long-term underinvestment in our shore 
infrastructure will cause our facilities to degrade and our overall 
facilities maintenance backlog will increase. This means our 
infrastructure will be less efficient and less capable when it comes to 
supporting the warfighter. In addition, as we defer needed facility 
investments year after year, they generally become more expensive.
    As reported in the Department of Defense's FY15 Financial Report, 
Navy has a backlog of approximately $41.8 billion of deferred 
restoration and modernization requirements across all shore 
infrastructure.
    Navy's current facility condition is at 79. To eliminate the 
projected additional \1/2\ point each year decline over the FY17 FYDP 
at current budget levels, our models show an additional $620 million of 
facilities sustainment, restoration and modernization is required 
annually.
    Mr. Wittman. Have reductions in civilian- or contract-provided 
services for utility system operations; installation equipment 
maintenance; engineering services including fire protection, crash 
rescue, custodial, refuse collection, snow removal, and lease of real 
property; security protection and law enforcement; and motor pool 
transportation operations impacted availability of facilities that 
support operations and training?
    Captain Schager. Base services and shore infrastructure remain a 
key component to support and enable operations and training. The Navy 
has accepted an increased level of risk across a broad range of 
installation services including grounds maintenance, custodial, and 
transportation while preserving services and support in installation 
programs that directly support Fleet operations and training (e.g., air 
operations which includes air traffic control, ground electronics 
maintenance, etc.). Within programs that have seen significant service 
level reductions, like grounds maintenance, the Navy strives to 
maintain required capability to ensure operations and training 
readiness (e.g. funds grounds work to maintain clear zones around air 
fields and ordnance facilities).

                                  [all]

</pre></body></html>
